December 6, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20002

Re: Adkins and Maxim HealthCare Services, Inc. v. Collens, No. 19-646
Dear Clerk:

The Brief in Opposition to the Petition for Certiorari is due on December 19, 2019.
In accordance with Supreme Court Rule 30.4, I write to request a 60-day extension of time
for filing. This request is not opposed by the petitioner.

The basis for the request is the press of other business, most of which was on my
calendar long before I received the petition for certiorari in this case.

Iam the attorney principally responsible for preparing the Brief in Opposition. Iam
of counsel to a law firm, but I practice essentially as a solo practitioner, with no associates
or partners available to assist me.

I have been extraordinarily busy during the past three weeks, and I anticipate an
equally daunting work load during the next 45 days or more. Much of my practice involves
appellate work in the Alaska Supreme Court. I filed three briefs within the past month,
and I have four other briefs due to that Court within the next 40 days. I must present oral
argument in one of my appeals in January. In my trial court practice, I have two different
matters proceeding on expedited briefing schedules that cannot be adjusted. I will seek
continuances in some of these matters in order to give priority to this case, but realistically
the state courts would not allow me to continue them all.

Given this work load, I respectfully request that the Court grant this request for a
continuance.

Very truly yours,

NA O eres

Susan Orlansky

Of counsel to Reeves Amodio/LLC
500 L Street, Suite 300
Anchorage, AK 99501

(907) 222-7117
susano@reevesamodio.com
Counsel for Respondent
I certify that I served a copy of the above letter by first class mail and by email on counsel
for the Petitioner as follows:

Gregory Fisher

Davis Wright Tremaine LLP
188 West Northern Lights Blvd.
Suite 1100

Anchorage, AK 99503
gregoryfisher@dwt.com

By: 4 ON wee inn
Date:_ 1 /l/14 /

 
